    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General




           National Oceanic and
      Atmospheric Administration


    Concerns over NOAA’s Oversight of
             Grants and Contract with
Finger Lakes Production International,
                         Incorporated
               Final Report No. CAR-19201/July 2009



        FOR PUBLIC RELEASE




                       Office of Audit and Evaluation
                           Report In Brief
                                       U.S. Department of Commerce Office of Inspector General
                                                              July 2009



Why We Did This Review National Oceanic and Atmospheric Administration

In October 2006, Finger Lakes
                                Concerns over NOAA’s Oversight of Grants and Contract with
sought payment from NOAA
in the amount of $526,000 for   Finger Lakes Production International, Incorporated
456 of 968 radio spots pro-     (Final Report No. CAR-19201)
duced over a 4-year period.
The firm also submitted a
                                What We Found
complaint to Congress, in
which it alleged NOAA had
broken funding promises,        We found that weaknesses in internal controls were evident throughout NOAA’s
used an onerous process for     business dealings with Finger Lakes. NOAA’s relationship with this company
approving radio spots in the
                                was flawed almost from the start, as program officials ignored federal protocol for
absence of a formal funding
                                working with private sector firms. NOAA program officials’ casual discussions of
agreement, and conducted
inappropriate oversight of a    funding possibilities, letters of endorsement, and use of various funding vehicles
subaward the company had        likely conveyed a strong interest in maintaining a long-term working relationship
received from the National      with Finger Lakes, and minimized, perhaps inadvertently, the differing require-
Marine Sanctuary                ments and inherent obligations associated with grants, contracts, and other
Foundation.                     government-funding vehicles.
                                Specific examples of NOAA’s actions include the following:
We audited NOAA’s oversight
of grants and contract with        • Inappropriate Notification of a Grant Award. Then-director of
Finger Lakes to determine            NOAA’s Office of Exploration inappropriately notified Finger Lakes
whether internal control             of a grant award in advance of the grants officer’s official notification.
weaknesses were evident
throughout NOAA’s business         • Inadequate Grants Management. Both the grants management office
dealings with Finger Lakes.          and the program office failed to convey to Finger Lakes key information
                                     about requirements for tracking and reporting incurred costs.
Background
                                   • Potential Unauthorized Commitment. The director of NOAA’s Office
In August 2002, Finger Lakes         of Education inappropriately discussed funding strategies with Finger
Production International,            Lakes and the Smithsonian Institution regarding the production of jointly
Incorporated, entered into           sponsored radio spots, in which the Office of Education and Smithsonian
a sole-source contract with          Institution would pay Finger Lakes $50,000 for the series of spots.
NOAA’s Office of Ocean
Exploration to produce 86
radio spots at a cost of        What We Recommended
$100,000 over a 6-month
period ending in January
2003. After the contract        We recommended that the deputy under secretary for Oceans and Atmospheres
expired, Finger Lakes applied ensure that NOAA takes the following actions:
for and received a financial
                                   • Strengthen grants and procurement internal controls to include
assistance award that
eventually resulted in a series       stronger oversight of program officials’ interactions with current and
of grants totaling $490,000 in        prospective grant and contract recipients, and provide additional
funding to continue producing         guidelines and training for these officials to ensure they understand
NOAA-sponsored radio spots            their appropriate roles.
over a 2-year period.
                                   • Revisit the circumstances surrounding the review and approval of
                                     the scripts Finger Lakes produced under joint Smithsonian/NOAA
                                     sponsorship and determine whether NOAA’s actions resulted in a
                                     $50,000 unauthorized commitment.
U.S. Department of Commerce                                          Final Report CAR-19201 

Office of Inspector General                                                          July 2009



Briefly, the circumstances surrounding the claim are as follows: in October 2006,
Finger Lakes sought payment from NOAA in the amount of $526,000 for 456 of 968
radio spots produced over a 4-year period. The company did not apply for the 2005
award and was unsuccessful in its attempt to receive an award in 2006. The firm
also submitted a complaint to Congress, in which it alleged NOAA had broken
funding promises, used an onerous process for approving radio spots in the absence
of a formal funding agreement, and conducted inappropriate oversight of a
subaward the company had received from the National Marine Sanctuary
Foundation.

In response to a congressional request, Admiral Conrad Lautenbacher, then-under
secretary for Oceans and Atmosphere reviewed the claim and found it had no basis.
Beyond this determination, however, our review identified internal control
weaknesses in NOAA’s oversight of grant and procurement policies and procedures
that likely fueled the claim, and therefore, require strengthening. NOAA also could
not provide adequate documentation to resolve a portion of Finger Lakes’ claim—a
purported $50,000 committed as
                                       Table 1. Chronology of NOAA/Finger Lakes Association
part of a joint sponsorship
                                     March 2002     NOAA Office of Communications enters
arrangement with the
                                                    into memorandum of understanding for
Smithsonian Institution that                        sponsorship of no-charge radio scripts
may constitute an unauthorized       August 2002    NOAA Office of Ocean Exploration
commitment (see figure 1, page                      enters into 6-month, $100,000 contract
4). We recommend that NOAA                          for 86 radio scripts
reexamine the circumstances,         May 2003       Finger Lakes receives a series of grants
surrounding this amount.                            that eventually amounted to $490,000
                                                     to produce scripts over a 2-year period
                                       January 2006 Finger Lakes commits verbally and
FINDINGS AND                                         through e-mails to producing scripts as
RECOMMENDATIONS                                      part of a joint-sponsorship arrangement
                                                     with the Office of Education and
Our overarching finding was                          Smithsonian for a fee of $50,000 from
                                                     each sponsor
that internal control
                                       May 2006      In a complaint to its representative in
weaknesses were evident                              Congress, Finger Lakes accuses NOAA of
throughout NOAA’s business                           failing to pay $526,000 for broadcasts
dealings with Finger Lakes.            October 2006 Finger Lakes sends a letter to NOAA’s
NOAA’s relationship with this                        grants management office seeking
company was flawed almost                            payment of $526,000
from the start, as program             February 2007 Finger Lakes’ congressional
                                                     representative asks the under secretary
officials ignored federal                            for Oceans and Atmosphere to
protocols for working with                           investigate the company’s claim
private sector firms. NOAA’s           July 2007     Under secretary finds no liability on
program officials’ casual                            NOAA’s part
discussions of funding
possibilities, letters of endorsement, and use of various funding vehicles likely
conveyed a strong interest in maintaining a long-term working relationship with


                                             2

U.S. Department of Commerce                                                              Final Report CAR-19201 

Office of Inspector General                                                                            July 2009




Finger Lakes, and minimized, perhaps inadvertently, the differing requirements
and inherent obligations associated with grants, contracts, and other government-
funding vehicles. We identified several specific actions on the part of both NOAA
and Finger Lakes that likely contributed to the claim.

Memorandum of Understanding (MOU) and Subsequent Funding
Arrangements

MOU. The president of Finger Lakes approached NOAA’s director of Public,
Constituent, and Intergovernmental Affairs within the Office of Communications 1
in early 2002 to solicit sponsorship for the radio spots. In March 2002, the Office of
Communications entered into an MOU with Finger Lakes that allowed the company
to identify NOAA as the spots’ sponsoring agency subject to NOAA’s review and
approval of the spots. NOAA had no financial obligation to Finger Lakes under the
MOU. NOAA did not pay for the sponsorship or the right of review.

Contract Award. In August 2002, while the MOU was in place, the company
entered into a sole-source contract with the Office of Ocean Exploration to produce
86 spots at a cost of $100,000, or $1,163 per script, over a 6-month period ending in
January 2003. The Federal Acquisition Regulation states that contracts establish
mutually binding legal relationships obligating a seller to furnish the supplies or
services and a buyer to pay for them. Thus, NOAA had established a legal
commitment and the company apparently believed, going forward, that a price for
each script had been set.

Grant Award. After the contract expired in January 2003, Finger Lakes applied
for and received a financial assistance award that eventually resulted in a grant
totaling $490,000 in funding ($300,000— Office of Ocean Exploration, $100,000—
Office of Education, and $90,000—Marine Fisheries Service) to continue producing
NOAA-sponsored radio spots from May 2003 through September 2005. Unlike the
contract arrangement with Finger Lakes, grants require recipients to track and
report their incurred project-related costs. This award to the company was
noteworthy because 6 of 92 submitted proposals were selected for grant funding,
including Finger Lakes and only one other recipient that was rated fair to poor by
independent reviewers. The then-director of the Office of Ocean Exploration
anticipated the availability of grant funds under a Federal Register notice
concerning the pending issuance of financial assistance awards. He suggested that
Finger Lakes apply for an award. NOAA subsequently selected Finger Lakes for the
grant under this Federal Register notice, even though independent evaluators did
not rate the company’s grant proposal at the highest level. The Federal Register


1
    This office was at the time known as the Office of Public and Constituent Affairs.


                                                            3

U.S. Department of Commerce                                      Final Report CAR-19201 

Office of Inspector General                                                    July 2009




notice provided the director with the authority to select Finger Lakes despite the
company’s low rating.




Inappropriate Notification of the Grant Award and Discussion of Possible
Funding. While the director was within his authority to select Finger Lakes, he
overstepped his authority in notifying the firm of the award in advance of the
grants office’s official notification. The Department of Commerce’s Grants Manual
states that only grants officers can notify recipients of their selection for an award.
That officer notified Finger Lakes of the award on June 23, 2003. But in a tape-
recorded April 21st conversation between the Finger Lakes president and the
director, the two discussed the award. We listened to the taped discussion and
confirmed that the director had made the improper notification. The director
subsequently stated that while he was unaware he was being recorded, he liked
Finger Lakes’ product and wanted to tell the company of the award as soon as
possible.

Also in this and a subsequent recording, the director made multiple mentions of
additional sources of new grants that NOAA would make available for the radio
spots. According to the Grants Manual, these discussions were inappropriate: as
program representative, the director’s funding-related involvement is limited to
preparing notices of funding availability or other grant-related documents for
publication in the Federal Register. The advanced notification and direct
discussions about future funding could have led the company to believe that NOAA
intended to continue the partnership and fund the broadcasts at a level that


                                           4

U.S. Department of Commerce                                   Final Report CAR-19201 

Office of Inspector General                                                 July 2009




exceeded the identified resources available for this purpose. In fact, the former
grants officer who administered the award acknowledged that senior program
officials had routinely discussed funding with Finger Lakes. He further stated that
officials promised funds and pledged to seek additional funding while encouraging
the company to continue producing NOAA-sponsored spots, but the additional
funding did not always materialize.

Inadequate Grants Management. Both the grants management office and the
program office failed to convey to Finger Lakes key information about requirements
for tracking and reporting incurred costs. NOAA’s grant award terms and
conditions require recipients to document all project-related expenditures and
submit periodic financial status reports, but Finger Lakes did not do so. The firm’s
business officer stated that Finger Lakes had not closely monitored incurred costs
because the grants officer never informed the company of the need to track and
report them. Under the simplified contract, which NOAA first awarded Finger
Lakes, the company was not required to provide this detailed financial reporting.
The business officer also told us that the company viewed the grant as the same
type of financial arrangement as the contract—with each produced radio script
representing an amount due from NOAA. We showed the business officer where in
the grant agreement the requirement to track and report costs is referenced. The
business officer could provide an estimate of incurred costs but was unable to fully
substantiate these costs.

Termination of the MOU. The MOU had stated that either party could terminate
the agreement at anytime. Accordingly, in June 2004, on the advice of the NOAA
grants officer, the company terminated the MOU. The Finger Lakes president
stated that the grants officer had recommended that the MOU be terminated
because the contract and grant awards superseded it.

NOAA’s Review and Approval of Spots in the Absence of a Formal
Agreement and a Potential Unauthorized Commitment of Funds

The grant ended in September 2005, but from October 2005 to May 2006, Finger
Lakes produced 69 additional spots, submitted them to NOAA for review, and aired
them with a statement attributing sponsorship to NOAA, even though no formal
agreement existed between the two. It appears that during this period, no one at
NOAA questioned why it was reviewing radio spots and allowing the use of its name
as sponsor in the absence of a legal relationship with Finger Lakes. Also during this
period, NOAA provided the company with letters of support for its programming.
One such letter from the public affairs office stated in part, “On behalf of NOAA, I
offer any support needed for Finger Lakes Productions International to continue to
create the outstanding series Our Ocean World.” Combined with the bureau’s
continued approval of the spots written during this period, the letters also likely


                                         5

U.S. Department of Commerce                                   Final Report CAR-19201 

Office of Inspector General                                                 July 2009




contributed to the company’s misunderstanding of NOAA’s intent to continue
funding the radio program.

Potential Unauthorized Commitment. Finally, we confirmed that another
NOAA program official openly discussed funding strategies for Our Ocean World
with the company’s president. In this instance, the director of NOAA’s Office of
Education entered into discussions with Finger Lakes and the Smithsonian
Institution in January 2006 regarding the production of jointly sponsored radio
spots. According to e-mails among the three parties, the Office of Education and the
Smithsonian discussed paying Finger Lakes $50,000 for the series of spots.

The e-mail trail suggests the company believed the discussions resulted in a final
agreement of $100,000 for the broadcasts. After the initial meeting between the
three, the company president forwarded a follow-up e-mail to the director of the
Office of Education on January 18, 2006, presenting a $50,000 proposal and
co-sponsorship language to be used in the spots. In an e-mail reply, the director
stated that since the spots would be co-sponsored, the Finger Lakes’ proposal should
be for $100,000. She also suggested revisions to the sponsorship language. In late
January through April 2006, Finger Lakes forwarded 30 of the proposed 69 spots
containing the co-sponsorship text to NOAA’s office of communications for review
and approval, per NOAA policy. The director stated that she was unaware of the
spots’ approval and subsequent broadcasts until after the fact. The director
acknowledged she discussed the funds but stated that she neither intended to
commit NOAA to funding spots nor believed she had done so. She also stated that
she had always verbally informed Finger Lakes that any broadcasts would be
subject to availability of funds.

Conversely, the Smithsonian acknowledged that an agreement had been reached. In
May 2006, the agency issued a purchase order to ratify an unauthorized
commitment of funds and pay $50,000 to Finger Lakes for its share of the radio
spots. The NOAA director’s e-mail correspondence and the Smithsonian ratification
raise the question of whether the director’s actions resulted in a $50,000
unauthorized commitment.

Subaward. In May 2006, the NOAA director of the Office of Education asked the
National Marine Sanctuary Foundation to budget $50,000 for a grant subaward to
Finger Lakes. The statement of work cited radio programming jointly sponsored by
the Smithsonian and NOAA’s Office of Education. However, the foundation did not
accept the broadcasts produced between January and April as fulfilling the
subaward requirement and in the award letter to Finger Lakes, it stipulated that
the company was to produce 29 new spots, which Finger Lakes did.




                                         6

U.S. Department of Commerce                                     Final Report CAR-19201 

Office of Inspector General                                                   July 2009





Recommendations
We recommend that the deputy under secretary for Oceans and Atmosphere ensure
that NOAA takes the following actions:

   •	 Strengthen grants and procurement internal controls to include stronger
      oversight of program officials’ interactions with current and prospective grant
      and contract recipients, and provide additional guidelines and training for
      these officials to ensure they understand their appropriate roles.

   •	 Revisit the circumstances surrounding the review and approval of the scripts
      Finger Lakes produced under joint Smithsonian/NOAA sponsorship and
      determine whether NOAA’s actions resulted in a $50,000 unauthorized
      commitment.

NOAA’s Response
On June 29, 2009, we received NOAA’s response to our May 8, 2009, draft report. In
its response, NOAA provided some general and specific comments on the findings,
concurred with our recommendations, and indicated that it had already taken or
planned to take action to address the recommendations.

In its general comments, NOAA stated that the draft report was particularly
helpful in showing how the relationship with Finger Lakes developed. NOAA
further provided eight specific comments for consideration when preparing this
final report.

In responding to our first recommendation, NOAA concurred stating that it will
continue to review and update requirements in the Department’s Grants Manual.
NOAA further stated that the Grants Management Division will continue to inform
management, including senior-level individuals, of its responsibilities when holding
discussions with potential applicants or vendors. NOAA provided one example of a
January 2009 e-mail that provided guidance to all program officials. Lastly, NOAA
stated that it would encourage the Department’s Ethics Division, Office of the
Assistant General Counsel for Administration, to include a section for senior
executives concerning the appropriate interaction when discussing contract and
grants.

In response to our second recommendation, NOAA concurred stating that it would
immediately assign a senior official external to the acquisition and grants office to
review the actions.




                                           7

U.S. Department of Commerce                                     Final Report CAR-19201 

Office of Inspector General                                                   July 2009




OIG’s Comments
We considered NOAA’s comments when preparing our final report. Appendix II
provides OIG’s responses to NOAA’s comments on the report.

The action taken for the first recommendation is responsive and the action for the
second recommendation will be responsive when completed.

Concerning the first recommendation, we are encouraged by NOAA’s actions to
review and update the Department’s Grants Manual, as this is an effective method
for ensuring that all NOAA representatives follow required procedures. In addition,
reinforcement by the Grants Management Division will ensure that the staff and
senior individuals are reminded of those policies. Finally, we agree that the
Department’s Ethics Division should include a training section annually on
appropriate interaction with prospective grant recipients and vendors. However, we
ask that NOAA provide an action plan containing the planned or completed date of
the intended request.

Concerning the second recommendation, NOAA’s plan to assign a senior official to
review the actions and determine if an unauthorized commitment occurred, NOAA
will be responsive to our recommendation when completed. However, NOAA should
ensure that the senior official is familiar with federal contracting matters, including
ratification procedures in case of a suspected unauthorized commitment by a
government official in accordance with Federal Acquisition Regulation Subpart
1.602-3.

In accordance with Department Administrative Order 213-5, please provide to us,
within 60 days of the date of this memorandum, an action plan that addresses when
the recommendations will be completed. If you would like to discuss the contents of
the final report, please contact me at (202) 482-2600. We appreciate the cooperation
and the courtesies your staff extended to us during our review.

cc:
      Helen Hurcombe, director, Department of Commerce Acquisition Management
      Michelle McClelland, chief, Federal Assistance Law Division, Department of
      Commerce Office of General Counsel
      Jeffrey Joyner, counsel, Department of Commerce Federal Assistance Law
      Division
      Mitchell Ross, director, NOAA Acquisition and Grants Office
      Rimas Liogys, director, NOAA Grants Management Division
      Mack Cato, NOAA Audit Liaison

Attachments




                                           8

U.S. Department of Commerce                                   Final Report CAR-19201 

Office of Inspector General                                                 July 2009




       Appendix I: Objective, Scope, and Methodology
The objective of this inspection was to evaluate NOAA’s contract and financial
assistance awards to Finger Lakes Production International, Incorporated.

We performed our fieldwork from April 2008 through February 2009 at NOAA’s
headquarters and the National Marine Sanctuary Foundation in Silver Spring,
Maryland, and Finger Lakes Production International, Inc., in Ithaca, New York.

We met with NOAA’s procurement and program officials and reviewed the
following:
       •	 contract files, policies, and documentation related to issuing and
           administering the Finger Lakes contract
       •	 documentation concerning the subgrant to Finger Lakes
       •	 approved radio scripts and an original version of the taped discussions
           between NOAA’s officials and the president of Finger Lakes

We conducted this review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency, dated January 2005,
and under the authority of the Inspector General Act of 1978, as amended, and
Department Organizational Order 10-13, dated August 31, 2006.




                                          9

U.S. Department of Commerce                                     Final Report CAR-19201 

Office of Inspector General                                                   July 2009



  Appendix II: NOAA’S Comments and OIG’s Responses
The following are NOAA’s specific comments on the report and OIG’s responses.

MOU

NOAA’s Comment. The MOU between NOAA and Finger Lakes was cleared by
the Department’s General Counsel for Administration. The MOU authorized review
and approval of the contents of radio spots and established a review and approval
process. The review process was agreed to by Finger Lakes.

OIG’s Response. We agree with NOAA’s comments and reached the same
conclusion during the review. We did not revise the report.

Grant Award

NOAA’s Comment. The financial assistance award was amended several times,
adding additional funds totaling $490,000 ($300,000—Office of Ocean Exploration,
$100,000—Office of Education, and $90,000—National Marine Fisheries Service) to
continue producing NOAA-sponsored radio spots from May 2003 through September
2005. Furthermore, the selection official may recommend financial assistance to
organizations with proposals that were not highly rated. The encouragement of the
selection official to Finger Lakes to apply for financial assistance through the
competitive announcement in the Federal Register announcement is appropriate.

OIG’s Response. We acknowledge these comments. The report already provides
the total amount of funding provided under the grant and we did not revise the
report. However, we did revise the report on page 3 to state that the Federal
Register provided the director, who is the selecting official, with the authority to
select Finger Lakes despite its low rating.

Inappropriate Notification of the Grant Award and Discussion of Possible
Funding

NOAA’s Comment. NOAA policy is to provide award notification through a grants
officer, and notice was provided to Finger Lakes. The discovery documents
submitted by Finger Lakes Production International (FLPI) from various
interactions with NOAA reflect discussions of performance by the former director of
the Office of Ocean Exploration. No authorization to exceed the award was made by
the former director of the Office of Ocean Exploration or a grants officer.

OIG’s Response. We agree with NOAA policy, which is consistent with the
Department‘s Grants Manual. However, we do not agree that the discovery
documents reflect a discussion of performance by the former director of the Office of
Ocean Exploration. Specifically, the document that we verified was a transcript of a


                                          10 

U.S. Department of Commerce                                  Final Report CAR-19201 

Office of Inspector General                                                July 2009



discussion between the former director and Finger Lakes where he notified the
company of the intent to award a grant for the Our Ocean World radio spots. We did
not revise the report for any of these comments.

Inadequate Grants Management

NOAA’s Comment. The financial assistance provided to Finger Lakes was based
on a competitive Federal Register Notice. The company made use of the advance
payment and reimbursement terms of the award. NOAA regularly held workshops
on financial assistance compliance, but FLPI never attended.

OIG’s Response. We acknowledge NOAA’s comments and reviewed where
workshops had been held. However, we remain of the opinion that the grants
management office and the program office did not convey or enforce Finger Lakes to
track and report incurred costs. We did not revise the report.

NOAA’s Review and Approval of Spots in the Absence of a Formal
Agreement and a Potential Unauthorized Commitment of Funds

NOAA’s Comment. NOAA terminated the award as of September 30, 2005. This
termination informed the recipient and program office that the relationship
between NOAA and FLPI had been terminated. The designated program officers
listed in the award documents did not review or approve any spots.

OIG’s Response. We acknowledge NOAA’s comments and agree that the
designated program officers did not review and approve scripts. We believe that the
same officials were responsible for ensuring that all offices within NOAA were
timely notified that the relationship with Finger Lakes had ended and that no
additional radio scripts should be reviewed and approved without another MOU,
which formerly was in place. We did not revise the report.

Potential Unauthorized Commitment

NOAA’s Comment. While there are multiple references to requests by FLPI for
financial assistance, there is no record of any unauthorized commitment made by
NOAA personnel.

OIG’s Response. Because of the circumstances surrounding the emails and
ratification actions by the Smithsonian Institute, we believe that NOAA may also
have made an unauthorized commitment that requires ratification as described in
the Federal Acquisition Regulation. We did not revise the report.




                                        11 

U.S. Department of Commerce                                  Final Report CAR-19201 

Office of Inspector General                                                July 2009



Subaward

NOAA’s Comment. There is no record of any NOAA authorization in the
agreements made by or on behalf of the National Marine Sanctuary Foundation
with subcontractors or subawardees.
OIG’s Response. The foundation reviewed and approved a proposal from Finger
Lakes that contained the requirement for the production of the same joint NOAA
and Smithsonian radio scripts originally discussed. Also, the NOAA Director of
Education had been in contact with the foundation. We did not revise the report.




                                        12 

U.S. Department of Commerce          Final Report CAR-19201 

Office of Inspector General                        July 2009





                              13 

U.S. Department of Commerce          Final Report CAR-19201 

Office of Inspector General                        July 2009





                              14 

U.S. Department of Commerce          Final Report CAR-19201 

Office of Inspector General                        July 2009





                              15 

U.S. Department of Commerce          Final Report CAR-19201 

Office of Inspector General                        July 2009





                              16 

U.S. Department of Commerce          Final Report CAR-19201 

Office of Inspector General                        July 2009





                              17 

